No. 21-____
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 4,530 words and complies with the
word limitation established by Rule 33.1(g)(i) of the Rules of this Court.
Dated: August 2, 2021

/s/ Allyson N. Ho
Allyson N. Ho

